Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253
STATE OF NEW YORK

)

COUNTY OF NEW YORK

) SS

James Pacheco, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18
years of age.
That on 4/8/2020 deponent caused to be served 3 copy(s) of the within
Affirmation in Opposition to Petition for a Writ of Certiorari
upon the attorneys at the address below, and by the following method:
By Overnight Delivery

By Overnight Delivery

By Overnight Delivery

Lorna DiMella-Deem
Pro Se
83 Hawthorn Place
Briarcliff Manor, New York 10510

Michael Deem
Pro Se
26 Keystone Road
Yonkers, New York 10710

Angela DiMella
Pro Se
5 Fowler Court
Cortlandt Manor, New York 10567

By Overnight Delivery

By Overnight Delivery

David Lawrence, III
Assistant Solicitor General
28 Liberty St, 23rd Floor
New York, New York 10005
Attorney for Judge Gordon-Oliver

Thomas E. Humbach, Esq.
Rockland County Attorney
11 New Hempstead Road
New City, New York 10956
Attorney for Rollin Aurelein

By Overnight Delivery
Justin R. Adin, Esq.
Westchester County Attorney’s
Office
148 Martine Avenue, 6th Floor
White Plains, New York 10601
Attorney for Angelina Young

By Overnight Delivery
Erin O'Leary, Esq.
39 Broadway, Suite 1701
New York, New York 10006
Attorney for Robin D. Carton, Esq.

Sworn to me this
Wednesday, April 8, 2020
Antoine Victoria Robertson Coston
Notary Public, State of New York
No.01RO6286515
Qualified in Nassau County
Commission Expires on 7/29/2021

By Overnight Delivery
Barbara DeCrow Goldberg, Esq.
220 East 42nd Street
New York, New York 10017
Attorney for Robert J. Filewich,
PhD

Case Name: Michael A. Deem v. Lorna DiMella-Deem
Docket/Case No: 19-1111
Index:

